C'OCKLE

2311 Douglas Street *
Omaha, Nebraska 68102-1214 Legal B tiefs
1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

No. 19-292

ROXANNE TORRES,
Petitioner,
v.
JANICE MADRID &
RICHARD WILLIAMSON,
Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE RESTORE THE FOURTH, INC. IN SUPPORT OF PETITIONER in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in

New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief

contains 4260 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 7th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ;
State of Nebraska . Loe Qudraw-
My Commission Expires Nov 24, 2020 a £

 

 

Notary Public Affiant

39367
